Case 2:17-cr-20373-TLP Document 66 Filed 12/18/18 Page 1 of 12

PageID 428

IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF TENNESSEE
WESTERN DIVISION
UNITED STATES OF AMERICA,
Plaintiff,
v.
Craig Howard,
Defendant.

)
)
)
)
)
)
)
)
)

No. 2:17-cr-20373-TLP-1

ORDER OVERRULING DEFENDANT’S OBJECTION TO THE REPORT AND
RECOMMENDATION AND DENYING DEFENDANT’S MOTION TO SUPPRESS

Defendant moves to suppress incriminating evidence the police found in the bedroom he
shared with his girlfriend during a warrantless search of the home in which he resided in
Memphis, Tennessee. (ECF No. 18.) After an initial hearing, the Magistrate Court
recommended denial of the motion. (ECF No. 52.) The Magistrate Court determined that the
police lacked authority to search the bedroom where Defendant hid his gun, but that they still
acted in good faith so the motion to suppress should be denied. This Court, though, finds that
the police did have authority to search the bedroom because one of the tenants had apparent
authority to consent to the search. As a result, the Court finds that the government did not
violate Defendant’s Fourth Amendment rights. The Court also adopts the Magistrate Court’s
conclusion that the police acted in good faith. In short, this Court finds that the police search of
the residence was proper, but even if it were not, the good faith exception would apply. The
Motion to Suppress therefore is DENIED.

Case 2:17-cr-20373-TLP Document 66 Filed 12/18/18 Page 2 of 12

PageID 429

BACKGROUND
The District Court referred the Motion to Suppress to the Magistrate Court for a Report
and Recommendation (“R&R”). (ECF No. 19.) At the Magistrate Court hearing, the parties
established much of the record. This Court briefly summarizes the facts contained within the
R&R.
“LaQuinta McAbee (“McAbee”) testified that, on April 3, 2017, she lived at the
Residence1 along with her sister Evelyn Harris (“Harris”), Defendant, her two brothers, and
their kids.” (ECF No. 52 at PageID 247.) She had been living at the Residence with her sister
for less than one year and Defendant had been staying in her sister’s bedroom with whom he
shared a child “for a couple of months.” (Id.) She paid rent to another sister who owned the
Residence. (Id.) And Harris testified that she and McAbee split the rent payments equally. (Id.
at PageID 256.)
Memphis Police Officer Stephen Westrich was on patrol in the neighborhood near the
Residence. In the driveway of the Residence he saw a parked Nissan Maxima. After running
the license tag, he learned that the vehicle’s owner reported to police that armed “male blacks”
carjacked his car. (Id. at PageID 250.) Plain clothes officers then surveilled the Residence
when they observed an African-American woman leave the Residence and approach the vehicle.
(Id.) The officers then advanced toward the woman by the car and learned that it was Harris.
Officers also entered the Residence, conducted a protective sweep, and detained everyone but
McAbee and the children. (Id. at PageID 251.)
“McAbee testified that the police arrived ‘really early’ in the morning, that she ‘heard the
commotion outside,’ ‘ran to the window,’ and saw Harris outside with officers surrounding her

1

5607 Apple Blossom Drive, Memphis, Tennessee.
2

Case 2:17-cr-20373-TLP Document 66 Filed 12/18/18 Page 3 of 12

PageID 430

and her car with their ‘guns up.’” (Id. at PageID 248.) She then saw both of her brothers and
sister “on the porch in handcuffs.” (Id.)
During the incident, Officer Westrich asked the detained adults, including Harris and
Defendant, if they were leaseholders but did not ask any of them for consent to search the
Residence, though none objected to a search. (Id. at PageID 259.) He did ask another tenant,
Ms. McAbee, for consent.
That morning, McAbee told Officer Westrich that she lived at the house but that “she was
not a leaseholder.” (Id. at PageID 251.) She then gave Officer Westrich both verbal consent to
search the Residence and a signed consent-to-search form2 which informed her of her
constitutional right to refuse consent. (Id. at PageID 249.) And she gave consent to search
without consulting Harris or Defendant. (Id. at PageID 249.) The officers did not explain
where they intended to search or what type of evidence they sought. (Id.)
At the hearing, Officer Westrich testified that he believed McAbee had authority to give
consent to search the entire Residence because “she took care of the children, no other
individuals on the scene stated that they were leaseholders, and she gave consent for the
Residence to be searched.” (Id. at PageID 253.) The police officers then searched the
Residence including the bedroom shared by Defendant and Harris where they found a firearm
under the mattress. (Id. at PageID 252.) Defendant later testified in the hearing that he and
Harris kept the bedroom they shared unlocked. (Id. at PageID 258–59.)
McAbee later testified during the hearing “that she would not expect Defendant to come
into her bedroom and go through her belongings.” (Id. at PageID 247.) Indeed, Harris testified

Harris signed a consent-to-search form sometime later at the police precinct. (ECF No. 52 at
PageID 258.)
2

3

Case 2:17-cr-20373-TLP Document 66 Filed 12/18/18 Page 4 of 12

PageID 431

at the hearing that McAbee did not have actual permission to go into the bedroom she shares
with Defendant without asking for Harris’ permission. (Id. at PageID 257.) Neither McAbee
nor Harris ever mentioned such limitations to Officer Westrich or the other officers on the
scene.
LEGAL STANDARD
Howard asserts that the officers improperly searched his bedroom in violation of his
Fourth Amendment rights. The Fourth Amendment guarantees “[t]he right of the people to be
secure . . . against unreasonable searches and seizures . . . .” U.S. Const. amend. IV. Courts
have held that warrantless searches conducted by government officials are per se unreasonable
under the Fourth Amendment except for a few well-defined exceptions. Minnesota v.
Dickerson, 508 U.S. 366, 372 (1993). The Supreme Court has found that a warrant is not
required in certain circumstances because “[t]he ultimate touchstone of the Fourth Amendment
is ‘reasonableness.’” Brigham City, Utah v. Stuart, 547 U.S. 398, 403 (2006). Thus the warrant
requirement is subject to certain reasonable exceptions. Id.; see also Kentucky v. King, 563 U.S.
452, 459–61 (2011). Consent to search is one such exception.
The Sixth Circuit described its approach toward determining the validity of consent to
search in United States v. Riascos-Suarez. 73 F.3d 616 (6th Cir. 1996). To determine
voluntariness of consent, courts should examine the “age, intelligence, and education of the
individual; whether the individual understands the right to refuse to consent; whether the
individual understands his or her constitutional rights . . . . and the use of coercive or punishing
conduct by the police.” Id. at 625.
The law is well-settled on the shifting burden of proof in a matter such as this. If
Defendant establishes that a warrantless search occurs, the burden then shifts to the Government

4

Case 2:17-cr-20373-TLP Document 66 Filed 12/18/18 Page 5 of 12

PageID 432

to show by a preponderance of the evidence that an exception to the warrant requirement applies
and that the search was reasonable. United States v. Matlock, 415 U.S. 164, 177 n.14 (1974);
see also United States v. Herndon, 501 F.3d 683, 692 (6th Cir.2007) (“[t]he government has the
burden of proving the legality of a warrantless search”); United States v. Haynes, 301 F.3d 669,
677 (6th Cir. 2002) (“[t]he government has the burden of proof to justify a warrantless search”).
A magistrate judge may submit to a district judge proposed findings of fact and
recommendations for certain pretrial matters. 28 U.S.C. § 636(b)(1)(B). “Within 14 days after
being served with a copy of the recommended disposition, a party may serve and file specific
written objections to the proposed findings and recommendations.” Fed. R. Crim. P. 59(b)(2);
28 U.S.C. § 636(b)(1). A district court reviews de novo only proposed findings of fact or
conclusions of law to which a party objects. Fed. R. Crim. P. 59(b)(3); 28 U.S.C. § 636(b)(1).
The court may accept, reject or modify, in whole or in part, the magistrate judge’s findings or
recommendations. 28 U.S.C. § 636(b)(1)(C).
ANALYSIS
I.

The Police did not Violate Howard’s Fourth Amendment Rights by Searching the
Bedroom
a.

McAbee’s Actual Authority to Consent

The Magistrate Court determined that the police violated Defendant’s Fourth Amendment
rights because McAbee had neither apparent nor actual authority to consent3 to the search of

The Magistrate Court also considered whether McAbee voluntarily provided consent without
being coerced by the police. (Id. at 266.) This Court shares the Magistrate Court’s concern that
Officer Westrich’s alleged comment to McAbee—that “he could either get a search warrant and
‘tear up’ their home or that she could consent”—“was highly unnecessary and troubling . . . .”
(Id. at 268.) But this Court also agrees with the Magistrate Court’s conclusion that since
“McAbee never indicated that it affected her decision to provide consent” Officer Westrich’s
3

5

Case 2:17-cr-20373-TLP Document 66 Filed 12/18/18 Page 6 of 12

PageID 433

Defendant’s mattress. (ECF No. 52 at 281.) The Magistrate Court, relying heavily on United
States v. Waller, reasoned that Defendant had a reasonable expectation of privacy in the
mattress where he hid his gun because he neither told McAbee that he kept a gun there nor did
he ever give her permission to retrieve anything from that space. (ECF No. 52 at 280); 426 F.
3d 838, 843 (6th Cir. 2005).
In Waller, the court held that the defendant had a reasonable expectation of privacy in his
zipped suitcase and that it was unclear whether the other home occupant, from whom the police
obtained consent, had authority to consent to the search of the suitcase. Id. at 847. The court
also concluded that since the defendant was present at the time of the search “actual ownership
could easily have been confirmed.” Id. at 849.
But Waller involved a zipped suitcase, not a mattress4 in an unlocked bedroom. Id. at
844. Indeed, the Magistrate Court points out that no court in this Circuit has applied Waller’s
reasoning to a search underneath a mattress. (ECF No. 52 at PageID 278.) Instead, the
comment did not overcome her free will. As a result, this Court will not disturb the Magistrate
Court’s conclusion that McAbee’s consent was free and voluntary. (ECF No. 52 at 268–72.)
4

There is nothing unique about the hiding place which Defendant chose here. Cases involving
residential searches often include the discovery of evidence under a bed or between mattresses.
Typically, courts do not ascribe additional privacy expectations to mattresses. See e.g. United
States v. Ladell, 127 F.3d 622, 624 (7th Cir. 1997) (upheld search under mattress where
defendant’s mother consented to search); United States v. Aghedo, 159 F.3d 308, 311 (7th Cir.
1998) (lessee’s actual authority to consent to search of defendant’s bedroom included authority
to consent to search defendant’s mattress) United States v. Carter, 45 F. App’x 339, 345 (6th
Cir. 2002) (upheld search of hotel room because defendant’s consent to search hotel room
extended to the mattress under which police found cocaine); United States v. Tucker, 57 F.
Supp. 2d 503, 514 (W.D. Tenn. 1999), aff’d, 8 F. App’x 364 (6th Cir. 2001) (upheld search
where lessee gave consent to search defendant’s bedroom because “there [was] no legitimate
basis for suppressing the . . . loaded pistols discovered under the mattress . . . .); United States v.
Smith, No. 08-20201, 2010 WL 4007337, at *3 (W.D. Tenn. Oct. 12, 2010) (upheld search
where police found revolver under mattress during residential search for counterfeit money).

6

Case 2:17-cr-20373-TLP Document 66 Filed 12/18/18 Page 7 of 12

PageID 434

Magistrate Court relies on an opinion from the District of Montana—United States v. Brown,
No. CR-14-125-BLG-SPW-2, 2015 WL 3562558 (D. Mont. June 5, 2015)—which held that the
defendant had a reasonable expectation of privacy in his mattress because “simply owning and
occupying a home does not mean the homeowner has actual authority to consent to the search of
rooms occupied by others.” Id. at *2.
While that may be a true statement of the law in Montana or the Ninth Circuit, the Sixth
Circuit is clear that “all family members have common authority over all of the rooms in the
family residence.” Pratt v. United States, 214 F. App’x 532, 535–36 (6th Cir. 2007). Indeed,
“absent special circumstances, all rooms in the residence can be said to be areas of usage
common to all members of the family.” United States v. Clutter, 914 F.2d 775, 777–78 (6th
Cir. 1990); see also United States v. Gossett, 600 F. App’x 330, 334 (6th Cir. 2015)
(“Defendant’s mother, as a co-tenant, had common authority over the entire residence.”)
Here, the record suggests that the Residence is a family residence. McAbee lived there
with three siblings, Harris and their two brothers. (ECF No. 52 at PageID 247.) For a few
months, Defendant shared the bedroom with McAbee’s sister. The Court therefore finds that
under Sixth Circuit law, McAbee had actual authority to consent to search.
But the parties maintained at the Suppression Hearing that McAbee did not, in fact, have
actual authority to consent to the search of her sister’s bedroom where Defendant stayed.5
Harris testified that “McAbee does not have permission to go through the bedroom she shared
with Defendant . . . .” (ECF No. 52 at PageID 257.) And McAbee testified that she and Harris
respected each other’s privacy. (ECF No. 52 at PageID 247.) The Court therefore turns to
whether McAbee had apparent authority to consent.
5

There was no testimony that, at the time of the search of the Residence, anyone on the scene
told Officer Westrich that they did not have permission to go into each other’s rooms.
7

Case 2:17-cr-20373-TLP Document 66 Filed 12/18/18 Page 8 of 12

b.

PageID 435

McAbee’s Apparent Authority to Consent

“Warrantless entry is valid when based upon the consent of a third party whom the
police, at the time of the entry, reasonably believe to possess common authority over the
premises, but who in fact does not.” United States v. Hall, 979 F.2d 77, 79 (6th Cir. 1992)
(quoting Illinois v. Rodriguez, 490 U.S. 177, 177 (1990)). “When someone comes to the door
of a domestic dwelling with a baby at her hip . . . she shows that she belongs there, and that fact
standing alone is enough to tell a law enforcement officer . . . she probably lives there subject to
the assumption tenants usually make about their common authority when they share quarters.”
Georgia v. Randolph, 547 U.S. 103, 111 (2006).
The record here provides ample evidence that would lead a police officer to believe
reasonably that McAbee had authority to consent to the search of the bedroom shared by Harris
and defendant. First, McAbee had all four children by her side when Officer Westrich asked
her for consent. (ECF No. 52 at PageID 248.) Second, McAbee signed a consent-to-search
form that authorized a “complete search” of the residence. (ECF No. 52 at PageID 249.) Third,
the bedroom where officers found Defendant’s gun was unlocked. (ECF No. 52 at PageID
259.) Finally, Officer Westrich himself testified “he did not believe any further action was
necessary after he obtained consent to search from McAbee because she lived at the Residence,
she took care of the children, no other individuals on the scene stated that they were
leaseholders, and she gave consent for the Residence to be searched.” (ECF No. 52 at PageID
253.) Because of this, the Court finds that Officer Westrich could have concluded reasonably
that McAbee had authority to consent to the search of the bedroom.
c.

Consent to Search from McAbee was Sufficient to Justify Search of Entire
Residence

8

Case 2:17-cr-20373-TLP Document 66 Filed 12/18/18 Page 9 of 12

PageID 436

The Magistrate Court found that since “it was not clear who resided in which room . . .
the officers should have clarified this information . . . [since] the other residents were detained
just outside the Residence.” (ECF No. 52 at PageID 281.) But this is more than the law
requires. “[A]lthough police may not remove a co-tenant from the scene so that he is unable to
object, police are not required to seek out potential objectors.” United States v. Allen, No. 1620239-SHM-DKV, 2017 WL 9472879, at *6 (W.D. Tenn. Dec. 1, 2017), report and
recommendation adopted, No. 16-CR-20239-SHM-1, 2018 WL 624110 (W.D. Tenn. Jan. 30,
2018). Indeed, the Supreme Court has found that consent by one party was sufficient where a
potentially objecting defendant was absent only because of his arrest. Fernandez v. California,
571 U.S. 292, 302 (2014). The Court stated that it would not “inquir[e] into the subjective
intent of officers who detain or arrest a potential objector but instead [] refer to situations in
which the removal of the potential objector is not objectively reasonable.” Id.
Here, the Magistrate Court expressly noted that the police had an objectively reasonable
basis for detaining Defendant, Harris, and her two brothers. (ECF No. 52 at PageID 265.) The
officers “were aware that the Vehicle had been taken at gunpoint by two armed black males . . .
[they] observed one or two black males through the open doorway when they arrived on the
scene . . . [who then] retreated into the Residence, thus heightening their concern for securing
the scene.” Id. Put differently, the police detained these individuals as part of a protective
sweep. Because the police had an objectively reasonable basis for detaining the other
occupants, consent by one party—here McAbee—was enough to enter the Residence.

II.

Even if the Police Violated Howard’s Fourth Amendment Rights, the Good Faith
Exception Applies

9

Case 2:17-cr-20373-TLP Document 66 Filed 12/18/18 Page 10 of 12

PageID 437

The Supreme Court “created the exclusionary rule, a deterrent sanction that bars the
prosecution from introducing evidence obtained by way of a Fourth Amendment violation.”
Davis v. United States, 564 U.S. 229, 231–32 (2011). Courts should apply the exclusionary rule
to suppress evidence obtained in violation of the Fourth Amendment. Herring v. United States,
555 U.S. 135, 139–140 (2009). The exclusionary rule serves as both a future deterrent to, and a
current consequence, for police misconduct. Id. at 140. Yet courts do not apply the
exclusionary rule every time there has been a Fourth Amendment violation. Davis, 564 U.S. at
237. The Court, in making its determination whether to apply the rule, weighs the benefit of
future deterrence, the cost to the particular defendant, and the culpability of police conduct.
Herring, 555 U.S. at 144–145. “We have stated before, and we reaffirm today, that the harsh
sanction of exclusion ‘should not be applied to deter objectively reasonable law enforcement
activity.”’ Davis, 564 U.S. at 241 (citing United States v. Leon, 468 U.S. 897, at 919 (1984)).
The Court also examines the effect of the mistake on the outcome of the illegal search to
determine whether the mistake is not, “so attenuated that the deterrent effect of the exclusionary
rule no longer justifies its cost.” United States v. Leon, 468 U.S. 897, 911 (1984) (quoting
Brown v. Illinois, 422 U.S. 606, 608 (1975) (White, J., concurring)).
The Magistrate Court found that even though the police violated Defendant’s Fourth
Amendment rights by searching the mattress in Harris’ bedroom—a conclusion this Court does
not adopt—the officers still acted in good faith. (ECF No. 52 at PageID 282.) Indeed, the
Magistrate Court properly concluded that “it cannot be said that any law enforcement officer
had knowledge, or may be properly charged with knowledge, that the search was
unconstitutional under the Fourth Amendment.” See Davis, 564 U.S. at 241 (citing United
States v. Leon, 468 U.S. 897, at 919 (1984)). This is because Officer Westrich reasonably

10

Case 2:17-cr-20373-TLP Document 66 Filed 12/18/18 Page 11 of 12

PageID 438

believed that McAbee had authority to consent to the search of the entire home given “she lived
at the Residence, she took care of the children, no other individuals on the scene stated that they
were leaseholders, and she gave consent for the Residence to be searched.” (ECF No. 52 at
PageID 282.)
Defendant objects to the Magistrate Court’s conclusion, arguing that the officers did not
act in good faith. (ECF No. 56 at PageID 285.) He cites two district court cases for the
proposition that the good faith exception applies only to circumstances where the police
reasonably rely on a mistake by a third-party such as a defective search warrant and where
exclusion of evidence would not serve as a deterrent. Id. With that in mind, Defendant relies
first on United States v. Stokely, which held the good faith exception does not apply when the
unlawful arrest was the police officer’s fault. 733 F. Supp. 2d 868 (E.D. Tenn. 2010.) Above
all, Defendant argues here that “the Magistrate [Judge] erroneously failed to consider that the
officers in this case, like the officers in Stokely, had ample time and arguable [sic] sufficient
basis to seek a search warrant, but chose instead to seek consent.” (ECF No. 56 at 289.) He
then cites United States v. Blackaby, which held that excluding the evidence was appropriate
where the police conducted a warrantless search without obtaining consent and that the
suppression of the evidence would “meaningfully deter” future like conduct. No. CR 17-5DLB-EBA, 2018 WL 824495, at *13 (E.D. Ky. Feb. 12, 2018.)
Defendant’s argument is not persuasive, though, because Officer Westrich made no
unreasonable decision here. Rather, he based his decisions on the circumstances known to him
then and McAbee’s consent. (ECF No. 52 at 251–52.) Besides McAbee never told any of the
officers that she lacked authority to consent to the search of her sister’s bedroom where
Defendant hid his gun, nor did Defendant object to the police officers’ search of that bedroom.

11

Case 2:17-cr-20373-TLP Document 66 Filed 12/18/18 Page 12 of 12

PageID 439

(ECF No. 52 at 248–49, 251.) To the extent there was a mistake, then, the blame should fall on
McAbee for consenting to the “complete search” of the Residence without specifying that she
lacked authority to go into her sister’s bedroom. Thus, to suppress the evidence here would
provide no meaningful deterrence to the police conduct because the police did not act
unreasonably. The Court therefore agrees with the reasoning of the Magistrate Court on the
good faith exception and finds that the exception does apply here. The Court thus overrules
Defendant’s objection to the Report and Recommendation.
CONCLUSION
For the reasons stated above, the Court OVERRULES Howard’s Objection to the Report
and Recommendation and DENIES his Motion to Suppress.
SO ORDERED, this 18th day of December, 2018.
s/Thomas L. Parker
_____
THOMAS L. PARKER
UNITED STATES DISTRICT JUDGE

12

